No. _________

In The
Supreme Court of the United States
JOE D. BRYAN,
V.

TEXAS,

Petitioner,

Respondent.

On Petition for Writ of Certiorari to the
Court of Criminal Appeals
of Texas
CERTIFICATE OF SERVICE
All parties required to be served have been served. See Sup. Ct. R. 29.5. On
November 30, 2020, I served the Petition for Writ of Certiorari, Motion for Leave to
Proceed In Forma Pauperis, Certificate of Compliance, and the instant Certificate of
Service on Adam Sibley, Office of the 220th Judicial District Attorney of Comanche
County, Texas, P.O. Box 368 Meridian, Texas 76665. On January 19, 2021, I again
served the exact same Petition for Writ of Certiorari and Certificate of Compliance
on Mr. Sibley. I also served on Mr. Sibley an updated Motion for Leave to Proceed In
Forma Pauperis, this time with a Declaration in Support of Motion for Leave to

Proceed In Forma Pauperis completed by Petitioner Joe Bryan attached thereto.
Finally, on January 19, 2021, I also served a copy of the instant Certificate of Service
on Mr. Sibley.
Pursuant to this Court’s Order of April 15, 2020, counsel for Petitioner and
counsel for the State conferred. Both have agreed to the use of electronic service in
lieu of paper service. Accordingly, the above listed documents were served by email
to Mr. Sibley at Adam_Sibley@mac.com.
Respectfully submitted,
/s/ Allison Clayton
Allison Clayton, Counsel of Record
The Law Office of Allison Clayton
on behalf of The Innocence Project of Texas
P.O. Box 64752
Lubbock, Texas 79464
P: (806) 773–6889
F: (888) 688–4515
Allison@AllisonClaytonLaw.com

